 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL                      I

FEDERAL APPROACHES TO FUNDING
    PUBLIC HEALTH PROGRAMS
                        OFFICE OF INSPECTOR GENERAL

The mission of the OffIce of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwidenetwork of audits, investigations, and
inspections conducted by three OIG operating components: the OffIce of Audit Services, the
OffIce of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES
The OIG’SOffice of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilitiesand are intended to provide independent assessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS
The OIG’SOffice of Investigations(01) conducts crimina1, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativeefforts of 01 lead to criminal convictions, administrative         ‘
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS
The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Project staff included:

BOSTON REGION                                                         HEADQUARTERS

Lori B. Rutter, Lead Analyst                                          Tina Fuchs
Joyce M. Greenleaf
              EXECUTIVE                          SUMMARY

PURPOSE

To review the professional literature to determine the advantages and disadvantages of
Federal categorical and block grant approaches to funding public health activities.

BACKGROUND

In this report we respond to the Public Health Service’s (PHS) request that we:
(1) identify the advantages and disadvantages of categorical grant approaches to Federal
funding, (2) determine the effects of block grant funding approaches, and (3) suggest a
research and demonstration strategy for block grant funding. At the request of PHS staff,
we did this by reviewing the professional literature addressing Federal grant mechanisms,
federalism, and intergovernmental relations.

THE CATEGORICAL          GRANT EXPERIENCE

Categorical grants have been the traditional approach to Federal grant making.

   �   They have grown in number and appropriation level, and continue to be the most
       widely used approach for Federal grant making.
  �    They maximize recipient accountability to the Federal government.
  �    They target Federal money to precisely defined national objectives.
  �    They facilitate mtionwide adoption of innovative programs.

Concerns about categorical grants have become more widespread as the number of
programs has grown.

  �    They add administrative cost and complexity to the Federal grant system.
  .    They contribute to fragmented program management and service delivery.
  .    They inhibit program responsiveness to particular State and local needs.

The Federal government has taken initiatives during the past three decades to increase
State and local government discretion over Federal aid.

These initiatives include the Partnership for Health Act of 1966, General Revenue Sharing
in the 1970s, the Omnibus Budget Reconciliation Act (OBRA) Block Grants in 1981, and
many Federal waivers of categorical grant provisions in the 1990s.

THE BLOCK GIWNT EXPERIENCE

Our analysis of the effects of block grants focuses on five questions commonly asked
about the block grant experience.



                                            i
Have block grants promoted administrative improvements and cost-savings?

   �   States reported that block grants have improved administrative efficiency.
   �   The extent of administrative cost-savings is unclear because data are limited.

Have block grants facilitated services integration ?

   �   Studies on block grants examined services integration at the administrative rather
       than the service delivery level.
   �   The Partnership for Health Act improved intergovernmental coordination, but did
       not necessarily promote a system-wide approach to public health problems.
   �   The OBRA 1981 block grants enhanced integration at the administrative level.

Have block grants fostered gretier responsiveness to State and local needs?

  ��   States claimed that the Partnership for Health Act allowed them to tailor services to
       their own needs, but evaluators contend that the block grant did not significantly
       reorder State program priorities.
  .	   States reported minor adjustments to programs under the OBRA 1981 block grants,
       but did not substantially alter program priorities.

Have block grants replaced State and local funding for services?

  s    Scant data exist on how the Partnership for Health block grant money was used,
       but studies show that it promoted new spending rather than replaced State money.
  �    Under the OBRA 1981 block grants, States replaced lost Federal funds in order to
       maintain service levels.
  �    Factors other than block grant status better predict whether States use finds for
       additive or substitutive purposes.

Have block grants left certain client groups more vulnerable?

  ��   Block grants often include special targeting provisions to ensure that Federal
       fimding is allocated to the neediest populations. The effectiveness of such
       provisions is unproven.
  �    Limited data suggest no major differences in the client populations served under
       the Partnership for Health Act and the former categorical programs included in it.
  �    The OBRA 1981 block grants contained provisions to ensure targeting, but there
       has been little examination of their impact on the poor.




                                             ii
 RECOMMENDATIONS           FOR RESEARCH            AND DEMONSTRATION

 17ze Public Health Service should develop a strategy to use performance indicators in
 ways that will allow grantees substantial discretion in using Federal funds and, at the
 same time, hold them sufficiently accountable for their performance.

The President’s Fiscal Year 1996 budget calls for the Public Health Service to make a
significant commitment to program simplification by consolidating 108 programs into 16.
Given the additional interest in block grants in Congress, the Public Health Service must
give major attention to the development of funding mechanisms that afford grantees
substantial discretion and yet hold them accountable for performance. The literature and
the experiences it examines offer little guidance on how to establish such a performance
based system of block grants.

It is vital, therefore, to conduct an active research and demonstration effort that examines
how block grants and performance indicators can be uselidly linked. Toward this end, the
Public Health Service could examine ways in which block grant recipients:

   �   identify relevant indicators of performance,

   .   develop mechanisms for collecting performance data,

   .   present and disseminate performance data, and

   �   use such data to improve their performance and/or refine their objectives.


It is also important to focus attention on the Federal government’s oversight role with
respect to block grants and examine approaches it could use to:

   �   ensure adequate performance of grantees.

The thrust of this research and demonstration strategy should be directed to future efforts
that could be undertaken along with the provision of block grants. To a limited extent,
however, it might also encompass a retrospective look at block or categorical grant
programs to identify insights they offer for the development of performance based block
grants. The Maternal and Child Health Block Grant Program, which calls for States to
submit performance data to the Public Health Service, could be a good candidate for such
inquiry.

COMMENTS ON THE DRAFT REPORT

The Assistant Secretary for Planning and Evaluation reviewed the report and concurred
without elaboration. The Public Health Service (PHS) also reviewed the report. Its
comments appear in fill in appendix B.

The PHS concurred with our recommendation. In so doing, it noted two actions it has
undertaken that move in the direction of our recommendation. One is the “Performance
Partnership Grants” program that has been proposed to Congress. The other is an



                                             111
initiative “to establish and use performance measures whether they are funded through the
categorical or block grant mechanism. ”

We recognize the relevance and importance of these actions. In tandem with them, we
urge PHS to take maximum advantage of current research and demonstration opportunities
available in order to promote better understandings on just how block grants and
performance indicators can be usefully linked. In our report, we suggest in some detail
directions that can be taken in that regard.

The PHS suggested two technical changes, both of which we made in the final report.




                                           .




                                               iv
                       TABLE                   OF        CONTENTS

                                                                                                            PAGE


EXECUTIVE SUMMARY


INTRODUCTION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


THE CATEGORICAL                 GRANT EXPERIENCE                 . . . . . . . . . . . . . . . . . . . . . . . 5


     . categoricalgl-ants     are t.raditional approach to grant making . . . . . . . . . . . . . . . 5


     . Widespread concerns about categorical grants              . . . . . . . . . . . . . . . . . . . . . . . 6


     . Federal initiatives to increase discretion ov~r Federal aid             . . . . . . . . . . . . . . . . 8


THE BLOCK GRANT EXPERIENCE.                            . . . . . . . . . . . . . . . . . . . . . . . . . . . 10�

     . Have block grants improved administrative efficiency? . . . . . . . . . . . . . . . . . 10�

     . Have block grants facilitated services integration? . . . . . . . . . . . . . . . . . . . . 12

              .

     . Have block grants fostered greater responsiveness to needs?                 . . . . . . . . . . . . . 13


     . Have block grants replaced State and local funding for services? . . . . . . . . . . . 15


     . Have block grants left certain client groups more vulnerable? . . . . . . . . . . . . . 16


RECOMMENDATIONS                   FOR RESEARCH AND DEMONSTRATION                              . . . . . . . 19


COMMENTS ON THE DRAFI’ REPORT                             . . . . . . . . . . . . . . . . . . . . . . ...24


APPENDICES


A:
 Annotated Bibliography             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..    A-l

B. Complete Comments onthe Draft Report . . . . . . . . . . . . . . . . . . . . . . .. B-l

c:     Endnotes     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C-l
                           INTRODUCTION�


PURPOSE

To review the professional literature to determine the advantages and disadvantages of
Federal categorical and block grant approaches to funding public health activities.

OBJECTIVES

To identify the advantages and disadvantages of categorical grant approaches to Federai
funding.

To determine the effects ofblock grant funding approaches as identified inthe
professioml literature.

To suggest a research and demonstration strategy for block grant finding.

BACKGROUND

Rationale for the Repoti

In May 1994, when natioml healticare refomwas being comidered by Congress, the
Public Health Service (PHS), through the Office of the Assistant Secretary for Health,
asked us to conduct a review of the professional literature to identify the comparative
advantages and disadvantages of categorical and block grant funding approaches to public
health programs. The PHS expected that this review would facilitate its considerations
concerning how public health funds could best be distributed under a reformed national
health care system.

In August 1994, we prepared a working draft of the report in response to the PHS
request. By the time we met with PHS officials to review the report, Congress had
decided not to carry out health care reform in 1994; thus, the initial rationale for our
report was less compelling.

Yet, even without health care reform, the issue of reforming the current highly categorical
approach to Federal finding remains pressing. The Office of the Vice President set the
tone in this regard when it issued the report of the National Performance Review in
September 1993. That report, which called for a reassessment of the Federal grant system
and a reduction in the number of categorical grant programs, contended that “the current
system of Federal grant making fragments the ability of government at all levels to
address people’s needs in an integrated manner . . . by establishing often incompatible
eligibility standards and administrative rules and requirements, the proliferation of
categorical grants has made government at all levels less effective.”1



                                              *
                                              1
Throughout 1994, many States were making requests for Federal waivers from categorical
progrms toetince      tieircapacity todevelop imovative approaches oftieir own. The
Fall 1994 political campaign and the November elections reflected considerable popular
support for reducing the scope of the Federal bureaucracy and giving State governments
increased discretion in the use of Federal funds.

In view of these developments, PHS, during a review of our working report in November
1994, underscored the continued relevance of our review of categorical and block grant
funding approaches and urged us to expand our report. Specifically, PHS asked us to
offer recommendations on a research and demonstration strategy that might be undertaken
in concert with block grants--one that would add to our knowledge base on how block
grants could serve as an effective complement to categorical grant programs.

Our inquiry gained relevance in February 1995 when the President issued his budget for
Fiscal Year 1996. That budget calls for major consolidations of programs in PHS. It
proposes that 32 programs in the Centers for Disease Control and Prevention be combined
into 3, that 50 programs in the Health Resources and Services Administration be lumped
into 9 clusters, and that 26 programs in the Substance Abuse and Mental Health Services
Administration be consolidated into 4.

In this report we respond to the PHS requests. We start out by identifying the advantages
and disadvantages long associated with categorical grants--the most traditional and
prominent Federal funding approach. We then turn to an examimtion of the central
questions typically posed about the effects of block grants. We conclude by suggesting
directions PHS can take that would enable it to respond to the considerable current interest
in block grants and at the same time examine how best to build in necessary accountability
safeguards.

Types of Federal Grants

Historically, Federal grant programs have been classified in three main groups according
to level of recipient discretion: categorical grants being the most restrictive, block grants
falling somewhere in the middle, and general revenue sharing (GRS) providing virtually
unrestricted assistance. Currently, the most important division in the Federal grant system
is between categorical and block grants. General revenue sharing was termimted in 1986
due to declining political support amidst concerns about accountability. Sometimes the
differences in funding mechanisms are clearer in the abstract than in implementation, but
for the purposes of definition we will use the following continuum:




                                              2

                                                  FIGURE 1

                      Continuumof Federal Grants by Recipient Discretion


Least Restrictive                                                                             Most Restrictive

I -------------------------- -------------------- ----------- I ------------------------------ -------------------- 1

General Revenue Sharing                              Block Grants                           Categorical Grants



Categorical grants are primarily for specifically and narrowly defined purposes andare
tiemost restictive intemsof     howmuch discretion they give torecipients~ Recipients
of categorical grants may be State or local governments or non-profit institutions.
Categorical grants typically have mandated Federal application, eligibility, and reporting
requirements intended to ensure that programs and policies reflect national goals.
Categorical grants are the most prominent in both numbers of programs and amount of
dollars. 3 They are intended to support activity in particular areas, such as community
mental health, hemophilia, and alcoholism.

Block grants are broader in scope than categorical and have fewer Federal requirements.
They allow recipients considerable discretion in determining specific activities funded
within their program areas, but still maintain certain substantive goals and objectives.
Administrative, fiscal, reporting and other requirements are kept to a minimum. These
grants are provided chiefly to State governments. Block grants represent a small portion
of Federal grants, and are designed to support activity in broader areas such as preventive
health and health services, maternal and child health, and substance abuse.

It is important to point out that particular programs can fall at different points of the
continuum and that, as a result, there are many programs that are hybrids of block and
categorical grant approaches. An example would be the Maternal and Child Health Block
Grant. When established in 1981 (as Title V of the Social Security Act), the program
quite clearly belonged at the block grant point of the continuum, as it afforded extensive
discretion to State grantees. In 1989, however, Congress chose to limit that discretion in
various ways and to tie finding for the program in more closely with applicable health
status goals and objectives set forth under the “Year 2000 Objectives” established by the
Public Health Service.

It is also important to recognize that the terms “block grant” and “categorical grant” are
sometimes used in different ways. For example, a program having a narrowly defined
purpose but affording grantees substantial discretion might be called a block grant by
some and a categorical grant by others. We have found, however, that over time, the
degree of discretion afforded the grantee is the central distinguishing feature between the
two types of grants. For that reason and the sake of clarity, we stress that distinction in
this report.




                                                         3

This report is based primarily on a review of the policy literature on Federal grants,
federalism, intergovernmental relations, and public health programs published by journals,
research institutions, and government oversight agencies. To locate additional studies, we
contacted academics in public health and intergovemmental relations and spoke with
representatives from the Natioml Council of State Legislatures, the National Governors
Association, the Council of State Governments, and the Intergovemmental Health Policy
Project.

We conducted this study in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            4

            THE          CATEGORICAL                           GRANT
                           EXPERIENCE

The following information is drawn from a review of the literature on the Federal grant
system. It is meant to confkrn the history and trends in Federal grant making to provide a
better understanding of the context for grant reform.

CATEGORICAL         GRANTS HAVE BEEN THE TIU4DITIONAL                 APPROACH       TO
FEDERAL      GRANT MAKING.

� They have grown in number and appropriation level and continue to be the most
widely used approach for Federal grant making.

Federal grants have historically been directed at narrow, categorical programs with
specific purposes and tight Federal spending requirements. Despite experimentation with
other funding mechanisms, the main vehicle of Federal grant expansion over the past three
decades has been the categorical grant. The total number of Federal categorical grant
programs offering funding to State and local governments increased from 422 to 593
between 1975 and 1993.4 Likewise, this increase was matched by similar growth in
appropriations. In constant dollars, grant outlays for categorical rose from $77.6 billion
in 1975 to $147.4 billion in 1993.5 In contrast, there were 5 block grant programs in
1975 and 15 in 1993; block grant outlays in 1975 totaled $9.3 billion compared to
$17.6 billion in 1993 in constant dollars.G

�   l%ey maximize recipient accountability to the Federal government.

Categorical grants, with their extensive eligibility, pltig, spending, and reporting
requirements, are often viewed as the best way to make programs accountable at the
Federal level. These requirements are intended to ensure both the proper use of Federal
funds and effective implementation of Federally-funded programs.

The widespread perception that categorical are most accountable to the Federal
government may explain why they have been the most prolific. Congress, the
Administration, Federal administering agencies, and national interest groups all play roles
in designing, funding, regulating, and implementing categorical programs. But it is
Congress that ultimately determines how much money to appropriate for Federal grants,
and Congress generally believes that it has greater control over Federal money in a
categorical system. Congress has traditionally preferred categorical because of these
tighter controls. Other proponents of categorical, like interest groups, also favor
categorical programs because they can concentrate their efforts on lobbying Congress
rather than divide their time among 50 different State legislatures.7




                                             5

 �   l%ey target Federal money to precisely defined national objectives.

Categorical grants, with their strict definitions and requirements, may provide the best
guarantee that Federal funds will be used to advance specific national purposes. An
Advisory Commission on Intergovernmental Relations (ACIR) study that examined all
sides of the debate stated that “they [categorical] appear to offer the most efficient, direct
administrative means for securing any national objective.”8 Historically, “categorical
grants were established in response to particular needs or problems that were of national
interest and concern, and Federal funds were authorized primarily to stimulate States and
localities to take remedial actions.”9 One reason that Congress has preferred categorical
grants over other approaches is because it views them as effective instruments for
influencing State and local governments to provide certain services. 10 In addition,
Congress has preferred categorical because they fund programs directed at specific
problems, and, therefore, may find it helpful to refer to these programs when seeking
constituent support.

�    They facilitate nationwide adoption of innovative programs.

Sometimes Federal categorical grants are designed to promote widespread adoption of
innovative methods for combating particular health problems. Program innovations
pioneered in State or local health departments can be replicated on a national level through
a Federal categorical grant to encourage States and localities to spend money on particular
problems. In the past, advocates of categorical grants have credited these specific grants
with fostering new programs and enlisting support from interested groups--primarily
because categorical are created to fund new programs rather than expand general health
grants. 11

CONCERNS ABOUT CATEGORICAL GRANTS HAVE BECOME MORE
WIDESPREAD AS THE NUMBER OF PROGRAMS HAS GROWN.

�    They add administr~”ve cost and complexity to the Federal grant system.

Critics claim that the existence of numerous, specialized categorical grants presents
excessive administrative reporting and accounting problems for grant recipients, and
inhibits efficiency and economy in distributing Federal grants. 12 The most outspoken
critics of categorical grants have been public administrators with broad responsibility,
academics; State and local government officials and service providers, and policy research
institutions like the ACIR and the General Accounting Office (GAO). These groups have
evaluated Federal grant programs and have documented the administrative burdens placed
on recipients of categorical grants.

Many studies conducted over several decades report that State and local governments are
concerned about the high administrative costs and excessive paperwork associated with
categorical grants. An ACIR survey conducted almost 20 years ago found that State and
local governments’ chief complaints about categorical were the excessive paperwork and
administrative complexity that they attributed to Federal involvement with these grants. 13


                                              6
In particular, Stiteand local movements have been concerned about thegrowtignuber
of Federal planning and reporting requirements that drain staff resources. 14 Many of the
same fundamental difficulties remain today.

�   They conti”bute to fragmented program management and service delivery.

Another lingering criticism of the categorical grant system is that it is fragmented and
results in duplication and overlap of programs. According to an ACIR report, “excessive
categorization and overlapping of grants create administrative problems at all levels and
handicap the development of a coordinated attack on community problems. “15 Problems
of planning, coordination, and service delivery can get especially confounded in a multi-
layered bureaucracy that involves Federal, State, and local governments. lb

Some critics blame fragmentation on the increase in the number of categorical grant
programs. *7 However, the fragmentation may also result from excessive program
specificity, with clusters of several grants for servicing, planning, training, and
demonstrating in the same narrow program area. 18 This categorical specificity may be a
reflection of our political system: categorical are at the nexus in the “iron triangle” of
special interest groups, Congress, and Federal program bureaus. Some contend that the
prevalence of categorical is testament that the Federal grant system is not a system at all.
Instead, these programs have developed piecemeal, with little consideration for the overall
needs of, or the overall impact on, State and local governments. 19

All levels of government have devoted considerable attention to improving coordination of
categorical grant programs over the past few decades. The Federal government has
implemented a wide variety of reforms to achieve this goal, but none has had more than
limited success. 20 Failed attempts to improve coordination among programs, the ACIR
concludes, “have demonstrated that Federal agencies have few incentives to standardize,
simplify, or target their activities. Their primary concern is to be able to account for and
make effective use of each specific grant program they administer. “2*

�   They inhibit program responsiveness to pati”cular State and local needs.

Critics claim that the restrictive nature of categorical grants hinders Federal

responsiveness to the rapidly changing and diverse needs of State and local governments.

With more than 50 States and territories, and thousands of jurisdictions, opponents of

categorical contend that the Federal government is unable to respond effectively to local

concerns with categorical grants. Most Federal grants assume that national concerns are

complementary to State and local needs. However, there are instances when these sets of

needs differ. Critics say that categorical grants lack the flexibility State and local officials

need, particularly in fast-changing areas like public health, to adopt new approaches in

disease control and to enact programs that reflect the needs of their populations. Critics

also argue that the ability to be responsive to State and local needs is compromised by the

categorical grant system with its narrow allowable uses and web of Federal

requirements. 22




                                                7

THE FEDERAL GOVERNMENT   HAS TAKEN INITIATIVES OVER THE PAST
THREE DECADES TO INCREASE STATE AND LOCAL GOVERNMENT
DISCRETION OVER FEDERAL AID.

Amidst the growing number of categorical programs, the Federal government has
experimented with several more flexible funding approaches. These experiments, which
give State and local governments greater discretion over Federal funds, include block
grants, general revenue sharing (GRS), and Federal waivers.

.   Pa~ership   for Health Act of 1966: A Block Grant

The f~st modern block grant to be enacted was the Partnership for Health Act (PHA) of
 1966. The PHA revised the Federal health grant system by consolidating nine categorical
health service formula grants into one block grant program. Its purpose was to develop
comprehensive health planning at all levels of government, to strengthen State health
agencies, and to support the State and local health services in a more flexible manner.23
The PHA simplified administrative procedures, which, in turn, resulted in the Department
of Health, Education and Welfare assuming a “hands-off” attitude toward monitoring and
implementation of the program. Throughout the 1970s, the PHA lost ground because
Congress enacted numerous new categorical programs that logically could have been
folded into it. ThePHA block grant never became a significant vehicle for change in the
public health arena, as it never accounted for more than 3 percent of State public health
expenditures .24 The PHA’s limited financial significance coupled with political
inattention ultimately resulted in its demise.

�   General Revenue Sharing in the 1970s

General Revenue Sharing (GRS) was an entitlement program enacted by the New

Federalists to increase State discretion over distribution of Federal grant funds. State

officials. not Federal administrators, determined who received Federal grants and in what

amounts. The GRS was intended to consolidate Federal grant programs and eliminate the

expansion of Federal program priorities, mandates, and monitoring and reporting

requirements. 25 It required no application or granting-agency approval to receive Federal

fi.mds.zb The GRS was primarily a mechanism for transferring fimds from the national to

the local level with little Federal decision-making.


However, the GRS never lived up to its stated goals.z’ The scope and number of

Federal categorical programs continued to grow and minimized the impact of GRS. To

compound the problems, persistent inflation throughout the 1970s produced a tax revolt

which resulted in an economic slowdown and a decline in the growth of intergovernmental

aid.28 Bv 1986, these conditions converged with Congressional commitment to

categori~al grants, and general revenue sharing was terminated.29





                                             8

.   l%e Omnibus Budget Reconciliation Act (OBRA) 1981 Block Grants

Block grants reemerged as a funding mechanism in the early 1980s in response to
continued administrative and political criticisms of categorical grants and the desire to
curb Federal spending. Congress enacted nine block grants under the OBRA of 1981
 -- four of which are administered by the Public Health Service. These public health
block grants consolidated 21 categorical programs and reduced the aggregate Federal
funding levels up to 25 percent. Of these block grants, three -- Maternal and Child
Health (MCH), Preventive Health and Health Services (PHHS), and Alcoholism, Drug
Abuse and Mental Health Services (ADMHS) -- were implemented.30 Evidence on early
implementation of the 1981 block grants showed that States did at least as good a job in
administration of block grants as the Federal government had done formerly. Even
interest groups and service providers with a large stake in maintaining a categorical
system reported that they were by and large neutral toward the 1981 block grants as an
administrative reform after three years of implementation experience .31 Subsequent
proposals for the creation of block grants failed, however, because they became identified
as political instruments of domestic budget-cutting.

�   Federal waivers in the 1990s

Recently, waivers have become an increasingly popular approach for enhancing State
discretion over Federal funds. The number of State applications for Federal waivers has
increased for the Medicaid and Aid for Families with Dependent Children (AFDC)
programs. From April 1993 to August 1994, 17 States filed applications for Section 1115
Medicaid waivers; in the past, the Medicaid program received on average one to three
waiver applications per year. During this same period, 52 applications for AFDC waivers
were submitted compared to a total of 33 applications received during the preceding four
years. 32 These waivers free States from Federal regulations, while allowing them to
experiment with unconventional administrative or service delivery approaches.




                                             9

     THE         BLOCK               GRANT              EXPERIENCE

Most literature on Federal grant funding approaches was published in the 1970s and 1980s
when political attention was focussed on reforming the Federal grant system. We
reviewed evaluations of the shift from categorical to block grant funding for public health
programs conducted by academics, the GAO, the ACIR, and various contractors hired by
the Department. These evaluations focus primarily on the Partnership for Health Act of
1966 and the three PHS-administered block grants erected under the Omnibus Budget
Reconciliation Act (OBRA) of 1981.

During our search we found that few studies of public health block grants were conducted
after the mid-1980s. The lack of analysis of these programs may be due to lack of data,
because most Federal reporting requirements were removed when categorical programs
were consolidated into block grants. Perhaps the dearth of information, coupled with
almost a decade of political inattention to reforming the Federal grant system, explain why
so little has been written on this topic in recent years.

It is difficult to generalize about State experiences under block grants because these grants
have varied widely in structure, legislative intent, and objectives. The level of funding,
the increasing categorization imposed by Congress over time, and previous State
involvement in the program area have also affected block grant perforrnance.33
Nevertheless, despite these important differences among the block grants, some common
lessons have emerged out of the early experiences in implementing block grants. This
analysis identifies those lessons by focusing on questions commonly asked about the block
grant experience.

HAVE BLOCK GRANTS PROMOTED ADMINISTRATIVE                          IMPROVEMENTS
AND COST-SAVINGS?

�   States reported that block grants improved administrative efficiency.

The literature evaluating block grants, particularly the Partnership for Health Act of 1966
and the three PHS-administered block grants enacted by OBRA 1981, shows that most
States surveyed altered their administrative systems and made management improvements
in response to block grants. 34

A 1977 ACIR study that examined State experiences under the Partnership for Health Act
and the three other block grants (Comprehensive Employment and Training Act, Crime
Control and Safe Streets Act, and Community Development Block Grant) implemented in
the 1960s and 1970s “indicated that significant policy and administrative decentralization
was achieved, Federal personnel and paperwork costs were reduced. “35 Administrative
improvements resulted primarily from the requirement that State health agencies submit
one comprehensive State plan for all public health activities rather than comply with many
separate reporting requirements.



                                             10

 A series of GAO studies reported on States’ experiences under the PHS-administered 1981
 block grants and found that, of the 13 States surveyed, most reported having implemented
 management improvements as a result of the block grants. The GAO found that almost
 two-thirds of State respondents reported reduced time and effort spent in preparing
 program applications. In addition, almost three-fourths claimed that they spent less time
 and effort reporting to the Federal government under block grants compared to categorical
 programs. One-third of the States surveyed reported improving the use of personnel as a
 direct result of the block grants; two-thirds of the State respondents reported altering their
 administrative procedures in response to block grants.3G

Almost all of the 13 States included in a GAO survey reported administrative
improvements under the Alcohol, Drug Abuse, and Mental Health Services (ADMHS) and
Maternal and Child Health (MCH) block grants. Most of these States reported reducing
time and effort involved in preparing grant applications and reporting to the Federal
government under ADMHS.37 In an Urban Institute study of 18 States, many States
reported that ADMHS enabled them to standardize administrative requirements and to
improve planning, budgeting, and the use of personnel .38 The GAO found that States
reported improved administrative efficiency by integrating MCH planning into the overall
health planning and budgeting processes .39 According to the Urban Institute study, some
States enhanced administrative efficiency by creating “mini-blocks” that devolved
responsibility to localities. Others reported improvements and suggested potential savings
at the local level from grant consolidation and streamlined application procedures.a

Some States surveyed by the Urban Institute reported that the implementation of the
Preventive Health and Health Services (PHHS) block grant was time-consuming and
expensive at first, but agreed that it eventually lightened their paperwork.41 According
to a GAO survey of 13 States, PHHS implementation was accompanied by “reduced
Federal administrative requirements in such areas as preparing applications and
reports. “42 Nine of the 18 States that the Urban Institute surveyed altered their
administrative practices in response to the PHHS block grant, but many of these States
reported that they passed on the burden to local grantees .43 While States report benefits
from administrative simplification, many may well have passed on their administrative
responsibilities onto local grantees rather than actually reducing the complexity and
amount of paperwork.

�   l%e extent of administrative cost-savings is unclear because data are limited.

It is difficult to determine whether block grants reduced administrative costs because so
little quantitative data have been collected, and existing data are of questionable reliability.
The difficulties in interpreting these data are documented in evaluations conducted by the
GAO, the Brookings Institution, the American Enterprise Institute, and the Urban
Institute. These studies discuss both limitations in the availability of data and
measurement errors in the existing data. Most pre- and post-consolidation evaluations
comparing administrative costs between block grants and categorical programs have
revealed no conclusive evidence to support the claim that block grants led to sizeable



                                               11

 reductions (10 percent or more) in administrative costs, but do not exclude the possibility
 that some cost savings emerged.~

 Attempts by the GAO and ACIR to compare administrative costs under the Partnership for
Health to the former categorical have not yielded compelling findings. The existing data
on administrative costs under the PHA suggest little difference between administrative
costs for the block grant and the former categorical. Administrative costs averaged
9.9 percent between FY 1975 and FY 1980, which falls within the range reported for
categorical programs. 45 In part, this higher than expected administrative cost may have
been because the newly created Partnership for Health Program funded grantees for a
wider variety of health services than the previous categorical. Case studies of the
Partnership for Health programs suggest that the costs of applying for, allocating, and
monitoring may have been as low as 2 to 3 percent, but because PHA did not restrict
administrative expenditures to a set of prescribed services, State health departments fimded
a variety of activities with PHA money.4b These confounding factors may have had
independent effects on administrative costs. However, the lack of data on the Partnership
for Health implementation makes it impossible to isolate them.47

While the OBRA 1981 block grants were enacted “to achieve more service at less cost, ”
scant information documenting actual dollar savings exists .48 An Urban Institute study,
conducted 3 years after implementation, showed that even block grant supporters who
claimed that grant deregulation “would make it possible for States to absorb as much as
20 to 25 percent of the fimding reductions through administrative savings alone” admitted
that savings were not that high. 49 Most States surveyed concluded that the block grants
had substantially reduced paperwork, but had not significantly reduced administrative
costs 50 A series of GAO studies on the OBRA 1981 block grants corroborated these
findings and reported that although States claimed reduced administrative costs, they had
no documentation on the magnitude of dollar savings resulting from block grants.

HAVE BLOCK GRANTS FACILITATED                  SERVICES INTEGRATION?

�  Studies on block grants emphasized services integration at the administrab”ve rather
than the service delivery level.

Block grants aim to improve coordination across categorical programs, both at the
administrative and service delivery levels .51 They are intended to have a “system
building” effect on programs. Yet, system building at the service delivery level has
received little attention in evaluations of the shift from categorical to block grants. Based
on the limited information in the studies on State experiences, it seems that more attention
has been paid to the administrative than the service delivery aspects: focussing on
economy and efficiency inherent in the consolidation of program planning, budgeting, and
management operations.




                                              12

� l%e Partnership for Health Act improved intergovernmental coordination, but did not
necessarily promote a system-wide approach to public health problems.

The PHA was intended to create an integrated approach to the planning, financing, and

delivery of public health services involving all levels of government and the private

sector.52 One ACIR analysis of the PHA and the three other early block grants found

that significant policy and administrative decentralization had taken place and

intergovernmental coordination had been facilitated .53 This was most likely the result of

turning over responsibility for the block grant to the State health agencies.

A second ACIR study, which included in-depth State case studies, revealed that none of

the six States had implemented a system-wide approach to public health problems in

response to the Partnership for Health. The PHA was not identified as an inhibitor to

such an approach, but, on the other hand, neither did it generate such an approach.54


�   The OBRA 1981 block grants enhanced integration at the administr~”ve level.

The Alcohol, Drug Abuse, and Mental Health Services block grant prompted some
improvements in integration at the administrative level. States had been heavily involved
in ADMHS programs prior to enactment of the block grant, and many of the programs
funded by Federal grants were quite similar to State programs. The block grant provided
opportunities for administrative consolidation. 55 All 18 States consolidated these Federal
programs into their existing State systems.

According to the GAO, integration was also enhanced under the Preventive Health and the
Maternal and Child Health block grants by combining their planning components into their
overall health planning and budgeting processes. 56 After the enactment of these block
grants, decisions about use of funds were linked to broader policy decisions on State
health programs, in the context of the availability of funds from Federal, State, and other
sources. 57

HAVE BLOCK GRANTS FOSTERED GREATER RESPONSIVENESS                              TO STATE
AND LOCAL NEEDS?

� States claimed that the Partnership for Health Act allowed them to tailor services to
their own needs, but evaluators contend that the block grant did not signij7cantly reorder
State program priorities.

An ACIR survey of officials in all 50 States revealed that the most prized feature of the
Partnership for Health was “the flexibility to use the funds where the needs are the
greatest or priorities highest, and to respond to changes in health needs over time. “58 All
but one of the States praised the flexibility of the PHA for allowing them to better meet
State and local needs. Some examples of State comments include:




                                             13

        Delaware: The country varies in the priority of needs unmet in the public health
        field, and the block grant potentially provides the flexibility to meet these various
        priorities.

        Kentucky: Weareable to focus ourauention onactial         problems ratiertha
        expend resources on low priority areas.

       Texas: Funds can be used comprehensively, with the State agency establishing its
       own priorities with regard to whom, how, and where the funds can be best utilized
       in helping satisfi the public health needs of the State’s citizens .59

Another study of the Partnership for Health, conducted by a professor at Wichita State
University, investigated whether the block grant resulted in substantive changes in the
expenditure of State public health funds compared with expenditures under the former
categorical grants. This study, based on responses from State health officials in all 50
States, found “that while there have been changes resulting from the shift to a block grant,
they have generally been minimal.”~ It contends that increased administrative flexibility
is not identical to or even related to focussing on major new priorities.Gl

A 1981 American Enterprise Institute study of the Partnership for Health also reported
that the block grant did not lead to major shifts in States’ program priorities. It concludes
that because the Partnership for Health fi.mds never accounted for more than 3 percent of
State health department expenditures, the grant never exerted much influence over service
priorities.’2

�  States reported minor adjus~ents to programs under the OBRA 1981 block grants,
but did not substantially alter program priorities.

Most program areas that had been funded under the prior categorical programs continued
to receive support under the OBRA 1981 block grants. Although such continuity was
evident, minor changes in funding patterns emerged as States sought to assert their own
priorities while dealing with funding limitations.b3 A GAO study of 13 States found that
States recognized their greater decision-making authority to set program priorities and
determine the use of funds than they had under the prior categorical programs, but did not
exercise it to make substantial changes .w Freed from Federal restrictions and program
guidelines, some States began to take advantage of increased flexibility and transferred
small portions of funds across block grants.

Programs that fared best (financially) under the 1981 block grants appeared to be those
with statewide application and histories of State as well as Federal funding. Some States
reduced or eliminated funding for federally supported projects, and others realigned the
types of services offered.G5 For example, looking at the Maternal and Child Health
block grant in 18 States, the Urban Institute found that the Crippled Children’s Services
program, with its long history of State involvement, saw its share of funding grow in
many States. In contrast, the finding for the Lead-Based Paint program--viewed as a
narrowly focused, urban program with little State involvement--was cut .fi


                                              14

Almost all of the 18 States surveyed by the Urban Institute reported minor adjustments in

their program mix in response to the Preventive Health and Health Services block

grant. c’ To some extent, this involved creating new programs or initiatives within

existing programs. However, the majority of the changes involved shifting funding among

the old Federal program categories.c8


The same Urban Institute study concluded that the Alcohol, Drug Abuse, and Mental

Health Services block grant also resulted in limited changes across the program areas. By

and large States maintained the traditional funding patterns. In part, this continuity may

be due to the Federal earmarks dictating how to divide funds between services for

alcoholism and drug abuse and which mental health providers to fund. Nonetheless, most

States did not exercise the little flexibility afforded them.b9


HAVE BLOCK GRANTS REPLACED STATE AND LOCAL FUNDING FOR

SERVICES?


� Scant data exist on how the Partnership for Health block grant money was used, but
ACIR studies show that it promoted new spending ralher than replaced State money.

Other than the ACIR study conducted ten years after implementation, there have been no
national evaluations of the Partnership for Health Act. Little information exists showing
whether finds were used to replace State funds or to add to State public health budgets.
In part, the limited accountability requirements may have resulted in little reporting and
data collection and led to a diminished capacity to evaluate the impact of the shift from
categorical to block grant funding .70 However, according to the ACIR, the minor fiscal
magnitude of the Partnership for Health finds renders the issue of replacing State money
with Federal funds inconsequential. The PHA finding continued to equal or exceed the
total funding for the former categorical programs, and total State and local public health
expenditures expanded. Based on this evidence, the ACIR suggests that PHA money was
used to expand services rather than replace State money with Federal fimds.’l

. Under the OBRA 1981 block grants, States replaced lost Federal funds in order to
maintain service levels.

The OBRA 1981 block grants did not result in replacement of State money with Federal
funds. In fact, in many instances, the reverse was true. Public health block grants were
accompanied by significant cuts in Federal finding (as much as 25 percent), so many
States resorted to replacing lost Federal fi.mds from their own treasuries for programs that
they deemed important. Programs with a history of State involvement, whose benefits
were spread throughout the State, or whose recipients were viewed as particularly needy,
fared best.’z The Alcohol, Drug Abuse, and Mental Health Services and Maternal and
Child health block grants, both of which had strong State involvement, were extremely
successful in securing State and local funding to make up the difference in their finding
levels after Federal cuts .73




                                             15

 � Factors other than block grant status better predict whether States use funds for
 additive or substitutive purposes.

An ACIR analysis of States’ use of Federal grants concluded that a number of factors may
influence whether a particular grant program is additive or substitutive. Rather than type
of grant, it proposed that the principal factor is the recipient’s interest in the aided activity
in relation to competing uses for funds. Other factors include the size of the recipient
government, the number and variety of grant programs in which it participates, the timing
and size of the grant, and the grant’s requirements .74 A Brookings Institution study on
Federal aid contends that the type of grant is not the best predictor of whether States will
use Federal funds as replacement money. It argues that “all forms of Federal aid to states
and localities are fungible, no matter how ingenious the conditions placed on the use of
grant moneys. “75

A study published in the Political Science Quarterly points to a State’s fiscal condition as
a better determinant than type of grant in a State’s decision to use Federal finds as
additive or substitutive. “The more fiscally hard-pressed a jurisdiction, the more likely it
is to merge Federal grant funds with its own resources, and use them to pay for the basic
services it provides .. .If they are strong enough, fiscal pressures may cause generalist
officials to use as much Federal money as they can to do what in their view must be
done. “76

A 1985 Brookings Institution study concluded that States and localities prefer to use
Federal aid for additive purposes--to enlarge their programs--rather than substitute it for
State money .77 It concludes that recipient governments are aware of the costs associated
with using Federal grants to support basic services. States choose to avoid risks, which
include enforcement of requirements prohibiting the maintenance of existing programs
with Federal funds, demands made by specialists and interest groups that Federal funds
intended for their particular programs be protected, and fear of becoming reliant on
Federal grants which are often unstable .78

HAVE BLOCK GRANTS LEFI’ CERTAIN CLIENT GROUPS VULNERABLE?

� Block grants often include special targeting provisions to ensure that Federal funding
was allocated to the neediest popul~”ons. The effectiveness of such provisions is
unproven.

Options for ensuring that block grant finds are targeted to the needy include distribution
formulas, earmarking, and “hold harmless” provisions. Most block grants are allocated
through distribution formulas keyed to population and financial need. Proponents argue
that these formulas are more egalitarian than categorical grants because they emphasize
need rather than “grantsmanship” skills, Yet, critics claim that the political compromises
necessary for Congressional approval of block grant distribution formulas make targeting
resources to particular client groups difficult to achieve.




                                              16

Legislative earmarking is another way to alter block grants so that they channel certain
amounts of money into particular program areas. A third means of targeting block grants
is through inclusion of “hold harmless” provisions, which are designed to guarantee
funding to former grantees over a certain period of time until they are no longer
dependent on Federal aid.79 Any of these mechanisms may help ensure that block
grants’ flexibility does not result in overlooking certain program participants and
population areas .80

While these mechanisms have been used to ensure that distribution of funds through block
grants does not leave any client group vulnerable, the debate about the distributional
impact of block grants has generated significant controversy. Advocacy groups for the
poor, contending that federally administered categorical programs are better able to target
program assistance to those most in need, have expressed concerns about block grants .81
They fear that block grants will prompt the elimination of services targeted to poor and
minority populations over time. 82 This same concern has been played out in Congress.
When the 1981 block grants were introduced, the Secretary of Health and Human Services
maintained that freeing the States from Federal guidelines would permit them to focus
their efforts more effectively on the truly needy. Some members of Congress challenged
this argument claiming that, once Federal money was turned over to the State legislatures,
services to the disadvantaged would be slashed. 83

. Limited data suggest no major differences in the client populations served under the
Partnership for Health Act and the former categorical programs included in it.

Because there have been no national pre-post block grant evaluations of the Partnership
for Health, it is difficult to determine what impact the shift from categorical to the block
grant had on particular client groups. The only protected population were those using
mental health services, for which there was a 15 percent earmark; otherwise there were
essentially no restrictions on the programmatic use of funds. The little information
available suggests that there was no significant change in the distribution of resources
under the PHA. 84

. The OBRA 1981 block grants contained provisions to ensure targeting, but there has
been little examin~”on of their impact on the poor.

It is difficult to assess the impact of OBRA 1981 block grants on targeting the poor.

First, there has been a general lack of evaluation on the distributional impact of these

block grants. Second, for programs in which income eligibility was maintained, the

standards were tightened in response to Federal funding cuts. On the one hand, this move

was intended to focus the reduced program benefits more narrowly on the poor, but on the

other hand, it can be viewed as an attempt to limit the number of people receiving

services. 85


Finally, some of the OBRA 1981 block grants contained low-income targeting provisions.

For example, the Maternal and Child Health block grant mandated that certain services be

provided to clients with incomes below the official poverty line. However, other services



                                             17
authorized under MCH were not limited to clients who met these eligibility
requirements. ‘G The Alcohol, Drug Abuse, and Mental Health Services, the Preventive
Health, and the Maternal and Child Health block grants all included changes in their
distribution formulas to facilitate targeting. These changes instructed the Secretary of
Health and Human Services to consider States’ financial resources and the size of their
low-income populations when determining appropriate distribution.87

The PHHS and ADMHS block grants included provisions that required grantees to
fund previously supported projects in order to ensure that low-income clients served by
former categorical would continue to be served under the block grants .88 However, as
States began to establish their own criteria for targeting, efforts to study the impact of
targeting on a nationwide basis became more difficult. 89




                                            18

         RECOMMENDATIONS        FOR
    RESEARCH    AND   DEMONSTRATION

The literature on the effects of block grants leaves many important questions umnswered.
It tells us that in various settings at various times they have contributed to greater
administrative efficiency, more integrated management systems, and even increased State
and local spending. But the evidence in these areas is limited. It is even more limited on
questions concerning the effect of block grants on administrative costs, service delivery,
responsiveness to State and local spending, and targeting services to the needy.

In part, these limitations are attributable to the limited research conducted on block grants,
especially in recent years. In larger part, however, they are due to other more basic
factors. These include the (1) inherent difficulty in documenting the effects of a granting
mechanism which aims to minimize data reporting requirements and (2) limitations of
experimental design research techniques in governmental settings often experiencing rapid
political, fiscal, and/or demographic change.

Yet, given the forces generating greater support for block grant approaches and given
PHS’ interest in responding constructively to those forces,x it is timely to delineate a
research and demonstration strategy for block grants that is consistent with their inherent
nature of offering grantees substantial discretion. In this concluding section, we
recommend that PHS develop such a strategy.

The central question around which this strategy should revolve is the following:

       How can the Federal government enhance the discretion of grantees
       and at the same time hold them sufficiently accountable for their
       performance?

Indeed, if block grants (whether through formally established programs or through waiver
mechanisms) begin to shift from a relatively minor portion of Federal grant-making to a
more significant share, finding workable answers to this question will become increasingly
important. It will be vital that block grants become performance based: a direction for
which experience and the professional literature provide little guidance.

Thus, we offer the following recommendation. It is directed to PHS, which requested this
report. But the directions we lay out are generic enough to apply to the Department of
Health and Human Services and even more broadly to the Federal government.

The Public Health Service should develop a strategy to use performance indicators in
ways that will allow grantees substantial discretion in using Federal funds and, at the
same time, hold them sufficiently accountable for their performance.




                                             19

This strategy should recognize the considerable diversity across the country’s political
jurisdictions and should view each recipient of a block grant or Federal waiver as having
both an opportunity and responsibility for contributing to the knowledge base on the
central question identified above. It should focus on measuring the performance of
grantees more than on reviewing their detailed plans. It should aim for continuous
improvement through experiential learning and through the identification and
dissemination of effective practices.

Toward this end, the Public Health Service’ could examine ways in which block grant
recipients could do the following:

IdentiJj Relevant Indicators of Performance

Broad statements of goals and objectives and benchmarks of expected accomplishments at
particular target times are usefhl starting points, but in themselves are insufficient bases
for assessing performance. They must be supplemented by explicit indicators of
performance, expressed to the maximum extent feasible in terms of outcomes--that is,
actual changes in the conditions of program recipients. The process of identifying and
achieving consensus on such indicators is, in itself, an extremely important and difficult
one. It can contribute, however, not only to a better understanding of program results but
also to more refined expressions of program intent.

The PHS has already begun moving in this direction. The Maternal and Child Health
Block Grant, administered by the Maternal and Child Health Bureau, calls for grantees to
develop measurable indicators of performance related to the “Year 2000 Objectives”
developed by PHS. The ACCESS demonstration program, funded by the Center for
Mental Health Services, seeks to identi~ ways in which programs serving mentally ill
homeless adults can assess their performance in improving the lives of such individuals.
The self-assessment instrument developed by the Federation of State Medical Boards,
through funding by the Bureau of Health Professions, facilitates efforts by State medical
licensure boards to compare and assess their performance.

Among the research and demonstration questions that could be posed are these:

          What processes are most effective in facilitating consensus on pertinent
       indicators?

        Given resource and data limitations, what kind of indicators are feasible?
       What ones facilitate comparisons over time and across jurisdictions?

         What is a good mix of process, output, and outcome indicators?

Develop Mechanisms for Collecting Performance Data

The successful application of performance indicators will depend heavily on the feasibility
of the operational mechanisms to be used once they are established. A major challenge


                                             20
for architects of these systems is to develop data collection approaches that are as
minimally intrusive as possible to those actually delivering services. Particularly in
environments where the demand for services exceeds the supply, service deliverers are
unlikely to show much enthusiasm for new accountability mechanisms that call for them to
devote additional time to efforts to document their activities.

Among the research and demonstration questions ~hat could be posed are these:

          What kind of software programs show the most promise in allowing data
       to be captured with maximum efficiency?

          How are data collection responsibilities best divided between service
       deliverers and central staff?

         What kind of oversight most effectively contributes to accurate and
       consistent data collection?

Present and Disseminate Performance Data

How performance data are displayed and disseminated affects how they will be used. The
challenge is to present and distribute them in ways that facilitate understanding, not just
by statisticians and program experts, but also by general managers, legislators, and the
general public. In this context, the data are not intended to provide deftitive measures of
the success or failure of particular programs, but rather to facilitate more effective
questioning about results. If the data are presented in ways that allow comparisons over
time or across jurisdictions, then reviewers are likely to pose basic questions that seek
explanations for the differences.

Among the research and demonstration questions that could be posed are these:

          What kind of graphics and textual presentations are most effective in
       facilitating comparative analyses?

         Are there different approaches that are suitable for different audiences?
       What are the most effective ways of using “report cards” for grantees
       and/or service providers?

         What dissemination techniques show the most promise?

Use Pe@ormance Data to Improve Performance and/or Refine Objectives

In the continuous quality improvement approach to enhancing productivity, performance
data are intended to stimulate discussion about better ways to reach desired ends and/or to
a reexamination of what those ends should be. The data should be used on an ongoing
basis by grantees to review and improve their own operations; they should not be viewed
strictly as a mechanism for funders to assess the performance of grantees.


                                             21

Among the research and demonstration questions that could be posed are these:

         In what ways are grantees using performance data to review their
       operations? How do they facilitate collegial reviews? Reviews by broader
       publics?

         What are the major barriers they confront in trying to use these data to improve
       performance? How can they best address these barriers?

         What are the results? Are grantees making actual changes based on a review of
       performance data? What kind of changes are they making?

The four main components cited above--identifying relevant indicators of performance,
developing mechanisms for collecting performance data, presenting and disseminating
performance data, and using such data to improve performance and/or refine objectives-­
involve scrutiny of what happens within the jurisdictions using block grants. As important
as those internal dynamics are, they are not in themselves sufficient to afford the
accountability mentioned in our central question. In that context, it is also important for
PHS to examine approaches it could use to:

Ensure Adequate Performance of Grantees

Even with a block grant affording extensive discretion, a grantee must in some meaningful
ways remain accountable to the Federal funders. At the same time, the Federal funders
also have the obligation to carry out their stewardship responsibilities and yet remain true
to the principles of a block grant. Again, there is little experience here that provides a
usefid road map; knowledge must be gained by conducting an active research and
demonstration effort in concert with block grant funding.

Among the research and demonstration questions that could be posed are these:

          What is the potential of performance contracting? Are there viable mechanisms
       of providing more or less funding based on performance as measured by agreed
       upon indicators?

         How can the Federal government best ensure that performance data are accurate
       and consistent with established definitions? What kind of audits should be
       undertaken toward this end?

         What is the role for penalties in a performance based block grant system?
       Under what circumstances and how might they be used?

The five strategy components offered above are presented in the context of future efforts
that could be undertaken along with the provision of grants that give grantees substantial
discretion in how the funds are to be used. For example, these ideas could be used in



                                             22

implementing the extensive program consolidation included in the Department’s Fiscal
Year 1996 proposed budget for the Public Health Service (see page 2).

To a limited extent, it might also be useful to look retrospectively at both block and
categorical grant programs to identi~ any insights they offer to the establishment of block
grant mechanisms which hold grantees accountable for performance.

In this context, the Maternal and Child Health Block Grant Program could be a good
candidate for inquiry. Among the changes to that program that Congress made in 1989
were those calling for States to submit to PHS data that facilitate measurement of State
progress in meeting “Year 2000 Objectives. ” Reviews of how individual States and PHS
have responded to this mandate could be quite helpfi.d--in the sense of assessing the
potential of performance indicators, the barriers faced in trying to use them, and the ways
in which these barriers might be constructively addressed.




                                            23

COMMENTS                      ON       THE         DRAFT             REPORT

The Assistant Secretary for Planning and Evaluation reviewed the report and concurred
without elaboration. The Public Health Service (PHS) also reviewed the report. Its
comments appear in fill in appendix B.

The PHS concurred with our recommendation. In so doing, it noted two actions it has
undertaken that move in the direction of our recommendation. One is the “Performance
Partnership Grants” program that has been proposed to Congress. The other is an
initiative “to establish and use performance measures whether they are funded through the
categorical or block grant mechanism. ”

We recognize the relevance and importance of these actions. In tandem with them, we
urge PHS to take maximum advantage of current research and demonstration opportunities
available in order to promote better understandings on just how block grants and
performance indicators can be usefully linked. In our report, we suggest in some detail
directions that can be taken in that regard.

The PHS suggested two technical changes, both of which we made in the final report.




                                            24

                             APPENDIX                    A

                            ANNOTATED BIBLIOGRAPHY


This bibliography includes three major sections: general literature on Federal grants,
literature onthe Partnership for Health Act, andliterature on the 1981 block grants. This
bibliography summarizes some of the major studies that have provided frameworks for
thinking about the issues included inthebody of the report.

                 GENERAL LITERATURE              ON FEDERAL GRANTS


1. Advisory Commission on Intergovernmental Relations, Block Grants: A Comparative
Analysis, October 1977.

       Abstract: This report attempts to clari~ the confusion surrounding the design and
       administration of block grants. It is based on the ACIR’S assessments of the
       application of block grants to health, crime control, manpower, and community
       development. The report includes a description of the evolution of the block grant
       concept, its characteristics and objectives, and compares them to the reality of
       implementation. This report is intended to provide a foundation for
       recommendations on the appropriate use of the block grant by the Federal
       government.

2. Advisory Commission on Intergovernmental Relations, Summary and Concluding
Observations, June 1978.

      Abstract: This is the final report of the ACIR’S 14-volume study of the
      intergovernmental grant system conducted between 1976 and 1978. This report:
      (1) summarizes the major findings, conclusions, and recommendations of the entire
      study, (2) analyzes the changes in the Federal grant system in terms of
      intergovernmental issues, (3) identifies the broad trends that characterize Federal-
      State-local relations and speculates on the reasons for the trends, (4) interprets the
      long-term impact of these trends on American federalism, and (5) recommends a
      five-point intergovernmental strategy to meet the challenges of the current Federal
      grant system.

3. Claude E. Barfield, Rethinking Federalism: Block Grants and Federal. State. and
Local Responsibilities, American Enterprise Institute, 1981.

      Abstract: This monograph examines the administrative and political results that
      occur when categorical grants are consolidated into block grants. It addresses
      questio~ regarding the nature and function of American federalism in the 1980s,
      and suggests a framework for reordering Federal, State, and local priorities. This


                                           A-1
       monograph draws on other studies conducted by the GAO, ACIR, The Brookings
       Institution, The Urban Institute, and The National Governors Association that
       examine the impact of block grants on efficiency, decentralization, planning,
       coordination, and generalist control. Chapter four of this book, entitled
       “Evaluating Block Grants: The Previous Experience and Future Expectations, ”
       examines the administrative arguments behind the creation of block grants and is
       most relevant to this study. It proposes recommendations for the design of future
       block grant legislation.

      Important Points:
      Avoid vague language in the stated purpose of a block grant. Well-articulated

      goals provide clearer direction to the States and allow for more accurate evaluation

      later.

      Allow the States to hold separate public hearings or to integrate the block grant

      into their normal budgetary and legislative processes.

      Include Congressional mandates for audits that conform to existing standards such

      as OMB circulars or GAO Standards for Audits.

      Set a Congressional limit on overhead for each block grant. This limitation would

      allow flexibility for disparate administrative costs from the individual categorical

      grants folded into the block grant and encourage States to watch for costly,

      inefficient administration.

      Speci& a uniform definition of low-income persons in order to target block grant

      funds to the neediest populations.


4.	 Robert Agranoff and Leonard Robins, “How to Make Block Grants Work: An
Intergovernmental Management Perspective, ” New England Journal of Human Services,
Winter 1982.

      Abstract: This article describes the characteristics of block grants, outlines how
      they differ from categorical grants, and discusses past experiences with block
      grants. It outlines the implementation difficulties and recommends how to make
      block grants work on the national and State levels. It includes a discussion of
      national goals, accountability, adequate funding, regulatory requirements, program
      design and coordination, administrative systems, and planning and management.

5. Lawrence D. Brown, James W. Fossett, and Kenneth T. Palmer, The Charuzing
Politics of Federal Grants, The Brookings Institution, 1984.

      Abstract: This book recounts the history of the Federal grant system since the
      Johnson Administration. It explores the growth of Federal aid in the late 1960s
      and early 1970s and documents the efforts of successive presidents to rationalize
      the grant system and reduce Federal controls. This book represents the final
      chapter in a major Brookings Institution effort to evaluate the distributional, fiscal,
      programmatic, and political effects of Federal grants. It includes three essays:
      (1) Fossett’s essay synthesizes a series of case studies on the impact of Federal
      grants on selected urban areas; (2) Palmer’s essay explores the evolution of Federal


                                           A-2
       grant programs; and (3) Brown’s essay assesses the politics of devolution of
       Federal grants.

6. U.S. General Accounting Office, Block Grants: Federal-State Cooperation in
Developing Nationul Data Collection Strategies, 13RD-89-2, November 1988. (This
citation and following abstract provided by the Public Health Service. )

       Abstract: The GAO recommends that in considering future block grant data needs,
       the Congress may want to statutorily require the Secretary of Health and Human
       Services to develop a mode for State data exchange in consultation with appropriate
       associations of State and id  officials to facilitate uniform data collection under
       the community services block grant.

      The GAO also recommends that the Secretary of Health and Human Services work
      with the States through the cooperative data collection efforts to increase data
      comparability under the energy assistance; community services; and alcohol, drug
      abuse, and mental health services block grants.

7. U.S. General Accounting Office, Developing a Federal Drug Budget: Implementing
the Anti-Dwg Abuse Act of 1988, GGD-9OO1O4,August 1990. (This citation and
following abstract provided by the Public Health Service.)

      Abstract: There is no requirement that States provide expenditure data; so there is
      no way to determine the exact amount of funds expended on drug abuse, alcohol
      abuse or mental health. The GAO concludes that accounting for agency
      expenditures with sufficient precision to asses programs that Congress considers
      significant, such as anti-drug programs, is an important objective.

      Recommendation: Agencies with drug programs be encouraged to explore options
      that will provide better data with which to evaluate the effectiveness of their drug
      program expenditures.

8. U.S. General Accounting Office, Alcohol, Drug Abuse, and Mental Health Services
Block Grant: Women’s Set-Aside Does Not Assure Drug Treatment for Pregnant Women,
HRD-91-80, May 1991. (This citation and following abstract provided by the Public
Health Service.)

      Abstract: To better assure that the Congress is given a clear picture of how the
      funds for the women’s set-aside of the block grant is used, GAO recommends that
      the Secretary of Health and Human Services direct the Administrator of the
      Alcohol, Drug Abuse, and Mental Health Administration to specify annual
      reporting requirements for the States in a manner that allows for the national
      aggregation of reported data., States should be required to report on (1) all
      treatment programs for pregnant women and women with children and new or
      expanded treatment programs or services for women and (2) the number of drug-
      abusing pregnant women and women with dependent children.


                                          A-3
9. U.S. General Accounting Office, Alcohol, Drug Abuse, and Mental Health Services
Bock Grant: Drug Treatment Services Could be Improved by New Accountability Program,
HRD-92-27, October 1991. (This citation and following abstract provided by the Public
Health Service.)

       Abstract: This report indicates that the Federal government receives limited
       information on the results of the Federal investment in drug treatment services.
       Although most of the States reviewed monitor administrative processes, their
       review activities have not provided information on the quality and appropriateness
       of drug treatment.

       The GAO recommends that Congress direct the Secretary of Health and Human
       Services to: (1) establish reporting requirements for the States that will provide the
       Department with information to determine whether States are providing drug
       treatment program and services that are effective and (2) report to Congress by
       1995 on the progress of a State Systems Development Program initiated by the
       Department.

10. Michael J. Rich, Federal Policymaking and the Poor: National Goals. Local
Choices, and Distributional Outcomes, Princeton University Press, 1993.

       Abstract: This book examines the relationship between Federal decision-making

       systems and the distributional impacts of public policies. The analysis focuses on

       the roles that Federal, State, and local officials play in determining the uses of

       Federal funds, and how, if at all, these roles change over time. The author

       examines two main questions: (1) Are policy outcomes different when Federal

       officials--as opposed to State and/or local officials--have greater influence

       regarding the use of Federal program fi.mds? (2) Do Federal, State, and local

       governments differ in their responsiveness to the needs of the poorest citizens?

       This study offers a theoretical framework for analyzing the Federal grant system

       with an emphasis on experience with the Community Development Block Grant

       program.


       Important Points:

  �    The capacity of governments to target Federal funds to the poor vary greatly.

       Government officials at all levels tend to spread program benefits widely as

       opposed to concentrating them where needs are the greatest.

  �    Benefit coalitions play an important role in shaping Federal program outcomes.

       Targeting is greater when strong coalitions emerge to press government officials to

       concentrate funds on “needyplaces and to needy people.

  �    Benefit coalitions that include a strong Federal partner are more likely to be

       successful in obtaining targeted policy outcomes at the local level.


11. Office of the Vice President, “Strengthening the Partnership in Intergovernmental
Service Delivery, ” National Pe@ormunce Review, September 1993.



                                            A-4

       Abstract: This report outlines the current state of intergovernmental relations and
       Federal grant making. It recommends how the Federal grant system should
       allocate money to States and localities. This report calls for a streamlined
       approach to intergovernmental partnership through a reduction in the number of
       categorical grants and a decrease in the amount of paperwork required for receipt
       of Federal grants.

       Important Points:
  �	
       Federal mandates and regulations that accompany grant programs are cumbersome
       and costly to administer; they lack a coordinated implementation strategy between
       levels of government, and are not achieving their intended outcomes.
  �	
       States and localities have limited ability to customize service delivery by
       integrating programs because of competing, often conflicting, Federal rules that
       accompany each grant program.
  �	
       Massive reform of the existing system of intergovernmental grant-making is
       necessary. Federal grant programs should be consolidated into broad funding
       pools, organized around major goals and desired outcomes. The goals should
       include: streamlining administrative mechanisms, providing flexibility to account
       for regional differences and the diversity of needs, ensuring accountability by
       measuring performance and outcomes, and driving program design and
       mamgement down to the point of contact between government and the consumer.
  �	
       The number of categorical grants should be reduced and the Federal government
       should work with States and localities to define a more viable Federal partnership
       that balances flexibility and accountability.

12. Advisory Commission on Intergovernmental Relations, Characteristics of Federal
Grant-in-Aid Programs to State and Local Governments: Grants Funded in FY 1993,
January 1994.

       Abstract: This report is part of an ACIR series that has identified, counted, and
       examined the characteristics of Federal grant-in-aid programs since 1975. This
       report is its most recent effort to identify major changes in the basic features of the
       grant system.

       Important Points:
  �    The total number of Federal grants to State and local governments increased from
       557 to 593 between 1991 and 1993.
  �
       Grant outlays rose to $206.4 billion in 1993 from $152 billion in 1991, an increase
       of 36 percent.
  �
       The largest number of new categorical grants were in health, education, training,
       employment, and social services.
  �	
       Measured by outlays, Federal grants for health have expanded more significantly
       than any other area, rising from 9.1 percent of the total in FY 1975 to
       40.9 percent in FY 1993.
  �    There were 15 block grants in 1993 compared to 578 categorical grants.



                                            A-5

�	   More than 70 percent of the money in the grant system has been distributed
     through categorical programs, while about 10-15 percent has been allocated to
     block grants.
�
     Categorical grants continue to be the main avenue of Federal grant expansion.




                                        A-6

                      THE PARTNERSHIP          FOR HEALTH ACT

13. Leonard Robins, “The Impact of Converting Categorical into Block Grants: The
Lessons from the 314(d) Block Grant in the Partnership for Health Act, ” Publius, Winter
1976, pp. 49-70.

       Abstract: Data for this study were based primarily on 51 state health officials’
       survey responses to a 21 page questionnaire administered during the spring and
       summer of 1971. All of the States responded to either the letter, the written
       questionnaire, or the phone questionnaire.

       Important Points:
  �    The PHA increased administrative flexibility for State health officials.
  �    State health planning agencies did not have a major influence on the PHA. State
       health planning agencies located in governors’ offices had even less influence over
       the block grant.
  �    Congress did not significantly increase expenditures for the PHA, as initially
       promised.
  �    The PHA’s influence diminished as new categorical health programs were created
       that logically cotdd have been made part of the block grant.
  �    The block grant did not result in a reordering of State spending priorities.
  �	   The new administrative flexibility given State officials was insufficient to produce
       any substantive reordering of program priorities.

14. Advisory Commission on Intergovernmental Relations, The Patinership for Health
Act: Lessons from a Pioneering Block Grant, January 1977.

       Abstract: This report examines the Partnership for Health Act of 1966 to
       determine what lessons and insights it offers for the debate about block grants.
       Data for this study came from questionnaires completed by 50 State public health
       directors, interviews with State officials and representatives of interest groups, and
       discussions with academics specializing in intergovernmental relations. First, the
       study reviews the legislative history of this block grant, tracing the emergence of
       criticisms of the categorical approach to health grants. It includes an analysis of
       the expectations of consolidation and the legislative intent of this block grant.
       Second, it explores major features of the Federal administration of the block grant:
       organizatioml location, staffhg, and shifts in HEW and Administration policy.
       Third, it provides an overview of State administration and decision-making under
       the block grant including: patterns of public involvement, State flexibility, and
       State expenditure of block grant money. Finally, it concludes that the block grant
       is still the best intergovernmental approach to the public health area, and
       recommends that appropriately structured block grants replace categorical as the
       primary Federal funding mechanism. The appendix includes expenditure tables
       and in-depth analyses of six State case studies.




                                            A-7

15. Carl W. Stenbergand    David B. Walker, “TheBlockG rant:     Lessons from Two Early
Experiments, ” Publius, Spring 1977.

      Abstract: This article begins with a brief description of the evolution of the block

      grant concept andtien identifies andcompares the characteristics of the instrument

      with the realities after almost 10 years of implementation of the Partnership for

      Health Act (PHA) and the Safe Streets Act.


      Important Points:

  �
      The PHA ftmded a broad functional area at first, but over time, Congress

      authorized additional categorical health programs that detracted from its flexible

      servicing goals.

  �
      The PHA’s influence and scope were curtailed by its small fiscal magnitude when

      compared to the aggregate of Federal public health grants or to the total State-1ocal   ~

      direct expenditures.

  �   The PHA increased recipient discretion to the point where State dominance

      fostered Federal disinterest in the block grant.

  �
      The States were the dominant players in the implementation of PHA.

  �
      The PHA served as a “gap filler” rather than a “launching pad” for new initiatives.


16. U.S. General Accounting Office, Lessons Learned From Past Block Grants:
Implications for Congressional Oversight, IPE-82-8, 23 September 1982.

      Abstract: This study examined the five pre-1981 block grants--Partnership for
      Health, Omnibus Crime Control and Safe Streets Act, Comprehensive Employment
      and Training Act, Community Development Block Grant, and Title XX Social
      Services--and compared them to the provisions of the OBRA 1981 block grants. It
      focuses on: (1) how block grants attempted to balance competing goals of
      flexibility and accountability, (2) whether the poor and other disadvantaged groups
      have been served equally under bIock grants and categorical programs, (3) whether
      block grants yielded administrative savings, and (4) what evaluative information
      has been available to Congress under block grants.




                                          A-8

                            OBRA 1981 BLOCK GRANTS



17. George Peterson, etal., The Rea~an Block Grants, The Urban Institute, 1986.

      Abstract: This book examines the impact of the seven health and human service
      block grants passed by Congress in 1981. It places the block grants in policy and
      budgetary perspective to extract lessons for grant design after five years’
      implementation experience. The data for this study are drawn from a survey of
      State spending and program adjustments in 18 States from FY 1981 through FY
      1984. Each chapter is devoted to examining a different program area and explores
      how the following issues were affected by the shift from categorical to block
      grants: State versus national program priorities, State replacement of funds,
      administrative changes after the block grant, and State-1ocal relations.

      Important Points:
  �   The Maternal and Child Health (MCH) block grant gave States greater flexibility
      to determine program priorities, services, and providers, and at the same time
      allowed States to streamline administrative tasks. This flexibility was tempered by
      Federal funding cuts.
  �   States made few significant structural changes in response to the MCH block grant.
      The most substantial change was in the creation of “mini-blocks” delegating
      program responsibility to the local governments.
 �    Despite Federal budget cuts, most States found the resources necessary in their
      own treasuries to sustain MCH program spending.
 �    Although State officials felt that consolidation of categorical programs enhanced
      administrative efficiency, they could not provide estimates of administrative
      savings.
 �    Almost all of the States surveyed adjusted their Preventive Health and Health
      Services (PHHS) block grant program mix.
 �    States gave counties greater responsibility for PHHS services and distributed funds
      for these programs more evenly across the State.
 �    Some States found initial PHHS implementation time consuming and expensive, but
      most reported that the block grant eventually lightened their paperwork.
 �    Because States often do not provide PHHS services themselves, they provided little
      information about specific changes in service delivery under PHHS.
 �    The Alcohol, Drug Abuse, and Mental Health Services (ADMHS) block grant
      limited some Federal-State program duplication.
 �    The elimination of the Federal alcohol and drug reporting requirements enhanced
      the potential for administrative savings.
 �    States did not take full advantage of the flexibility available under the ADMHS
      block grant.




                                         A-9

18. U.S. General Accounting Office, Maternal and Child Heaith Block Grant: Program
Changes Emerging Understate Administration, HRD-84-35, 7 May 1984.

       Abstract: This report is part ofthe GAO series that looked at13 States’
       experiences with block grant implementation. It focuses on the Maternal and Child
       HeaIth block grant which consisted of eight former categorical programs.

      Important Points:
  �   St&es continued to support programs similar to those funded under the former

      categorical programs.

  �
      States assigned higher priority to programs in areas where they had considerable

      previous involvement.

  �   Due to Federal budget cuts, States shouldered a greater share of the program funds

      in order to maintain services.

  �   States’ health agencies carried out block grant responsibilities, and some reported

      management improvements as a result of the block grant.

  �   Most State officials rated the block grant more flexible and desirable than

      categorical.

  �   About half the interest groups surveyed preferred the prior categorical approach to

      the block grant.


19. U.S. General Accounting Office, States Use Added Flexibility Oflered by the
Preventive Health and Health Services Block Grant, HRD-84-41, 8 May 1984.

      Abstract: This report is part of the GAO series that looked at 13 States’
      experiences with block grant implementation. It focuses on the Preventive Health
      and Health Services block grant which consolidated seven former categorical
      programs into one block.

      Important Points:
  �   While PHHS accounted for less than 3 percent of States’ total health budgets, it

      represented about 30 percent of financing for broader State preventive health

      programs.

  �   Carryover funds from former categorical programs helped offset the reduced

      Federal funding for PHHS.

  �   The services offered under the PHHS block grant were essentially the same as

      those fimded under prior categorical programs.

  �
      States slightly modified program priorities to better reflect their concerns.

  �
      Changes at the service provider Ievel were not directly linked to the shift from

      categorical to block grant fimding. They may have been influenced by escalating

      costs and changes in other sources of funding.

  �
      States successfully carried out their expanded management role.

  �   States increased public participation and involvement of State elected officials.

  �   State executive and legislative officials liked the increased flexibility of block

      grants and preferred them to the prior categorical approach.

  �   Most interest groups preferred the categorical approach over block grants.



                                          A-10
   �	   All groups surveyed believed that the advantages of block grants were tempered by
        the Federal fimding cuts.

20. U.S. General Accounting Office, States Have Made Few Changes in Implementing
the Alcohol, Drug Abuse, and Mental Health Services Block Grant, HRD-84-52, 6 June
1984.

        Abstract: This report is part of the GAO series that looked at 13 States’
        experiences with block grant implementation. It focuses on the Alcohol, Drug
        Abuse, and Mental Health Services (ADMHS) block grant that consolidated
        10 categorical programs into one block.

        Important Points:
  �     Carryover funds from previous categorical grants mitigated Federal funding cuts

        and allowed States to sustain service levels into 1982.

  �     Program changes occurred at the service provider level, but were attributed to

        evolving community needs or changes “in total funding rather than the shift to the

        block grant approach.

  �     State agencies carried out their expanded management responsibilities and reported

        implementing administrative improvements.

  �     States reported increased involvement by legislatures and governors’ offices and

        sought public input through hearings.

  �     State officials rated the block grant program as more desirable than the categorical

        approach.

  �     Half of the interest groups surveyed preferred the prior categorical approach over

        the block grants.


21. U.S. General Accounting Office, Block Grants Brought Funding Changes and
Adjustments to Program Priorities, HRD-85-33, 11 February 1985.

        Abstract: This report is part of the series of GAO studies that looked at 13 States’
        experience with block grant implementation. It examines how States used their
        expanded decision-making authority and reacted to changes in the level of Federal
        finding.

        Important Points:
  �     States obtained greater decision-making authority to set program priorities and
        determine the use of funds than they had under the categorical programs.
  �     States’ increased programmatic discretion was tempered by requirements that they
        continue to find the same grantees as under categorical.
  �     States took advantage of available carryover funds from the prior categorical funds
        to mitigate the Federal funding reductions.
  �     States exercised their new discretion to transfer funds among block grants.
  �	    To maintain service levels, States increased the use of their own funds to replace
        Federal funding cuts.



                                            A-11

   �   Program areas that were funded under the categorical programs continued to
       receive support under the block grants.
   �   Some minor changes in funding patterns emerged as States began to put their
       imprint on program priorities.

22. U.S. General Accounting Office, State Rather than Federal Policies Provided the
Framework for A4anaging Block Grants, HRD-85-36, 15 March 1985.

       Abstract: This report is part of the GAO series that looked at 13 States’
       experiences with block grant implementation. It describes trends in States’
       planning and management of block grant programs.

       Important Points:
  �    Decisions on how to use block grants were linked to broader decisions on related

       State programs for health.

  �    More than half of the State program officials reported that block grants led to

       improvements in planning and budgeting, and increased their flexibility to better

       allow them to integrate Federal and State activities.

  �    Some States consolidated offices or integrated service delivery under related

       programs--particularly under the ADMHS block grant.

  �    Due to their prior involvement in categorical health programs, States generally did

       not change their levels of monitoring when they shifted to block grants.

  �    States were given discretion to determine the form and content of block grant data

       collected. As a result, the information reported to the Federal government was

       inconsistent across the States and difilcult to evaluate.

  �    States in 68 percent of cases reported that block grants reduced the time and effort

       devoted to Federal applications and reporting. Sixty-seven percent of States

       surveyed claimed that block grants prompted them to standardize or alter their

       administrative procedures.


23. U.S. General Accounting Office, Block Grants: Overview of Experiences to Date and
Emerging Issues, HRD-85-46, 3 April 1985.

       Abstract: This report is part of the series of GAO studies examining block grant
       implementation in 13 States. This report assesses whether the objectives of block
       grants were met through implementation. The goals of block grants were: (1) to
       focus program responsibility and management accountability with States, (2) to
       increase public involvement in the decision-making process, (3) to improve service
       delivery through better integration of Federal and State programs, and (4) to
       promote mamgement improvements and save money.




                                           A-12

       Important Points:
  �
       States adapted quickly to their new role due to their prior involvement with many
       of the categorical programs.
  �    All of the States surveyed used hearing and comment processes to obtain public
       input.
  �    Initially, States emphasized program continuity, but over time changes emerged.
  �    States reported management improvements prompted by the block grants.             .
  �    Administrative savings cannot be determined due to the dearth of information.
  �    More than half of the interest groups surveyed preferred the categorical approach
       over block grants.
  �
       Eighty percent of governors, State legislators, and State program officials believed
       that the block grant approach was more desirable.

24. Richard P. Nathan and Fred C. Doolittle, “Federal Grants: Giving and Taking
Away, ” Political Science Quatierly, Vol. 100, No. 1, Spring 1985.

       Abstract: This article examines how State and local governments respond to
       Federal aid policy changes with an emphasis on the OBRA 1981 block grants. It
       offers some generalizations about the conditions under which Federal aid
       replacement is most likely to occur.

       Important Points:
  �	   Replacement is most likely to occur when the community ideology is pro-spending
       and the fiscal condition of the jurisdiction is strong enough to replace Federal
       funding cuts.
  �	
       Federally aided programs most likely to benefit by replacement are those with
       traditional or longstanding State and local involvement that have a politically strong
       constituency. For example, health programs did better in these terms than other
       programs for the poor.
  �
       There was more replacement at the State level than at the local level.
  �
       There is a strong tendency for recipient governments to resist using Federal aid to
       substitute for their own funds because of fear of sanctions.

25. U.S. General Accounting Office, Block Grants: Characteristics, Experience, and
Lessons Learned, HEHS-95-74, February 1995.

       Abstract: This report summarizes information on federal block grant programs,
       assesses the experience of States operating under them and identifies lessons
       learned that can be useful to the Congress as it considers creating a new set of
       block grants.

       Important Points:
  �	
       OBRA of 1981 created nine block grants from about 50 categorical programs. The
       fi.mding and other federally imposed requirements attached to the block grants were
       generally viewed by States as less onerous than under the displaced categorical
       programs.


                                           A-13
�	   Where States had operated programs, the transition from categorical programs to
     block grants was smoother.
�	
     States took a variety of approaches to help offset the overall federal funding
     reductions experienced when the categorical programs were consolidated into the
      1981 block grants.
�	   Funding allocations based on distributions under prior categorical programs may be
     inequitable because they do not reflect need, ability to pay, and variations in the
     cost of providing services.
�    Even though block grants were intended to provide flexibility to the States, over
     time constraints were added which had the effect of “recategorizing” them.
�    The Congress needs to focus on accountability for results, and the Government
     Performance and Results Act may provide such a framework.
�	   New block grant proposals include programs that are much more expansive than
     block grants created in 1981 and could present a greater challenge for the States to
     both implement and finance.
�	   Today, a total of 15 block grants are in effect. Compared with categorical grants,
     which number 578, there are far fewer block grants.




                                        A-14

                             APPENDIX                  B

                       COMMENTS      ON THE DRAFT REPORT

In this appendix, we present in fill the comments we received from the Public Health
Service.




                                         B-1
              $,awcr,
        *.9
                        %




              4L
    8

J?”                           DEPARTMENT
                                       OF ~EALTH& HUMANSERVICES                    Public Health sem~e
i
‘N,h,a
                                                                                   Washington   DC Z(MOI




                                                       Jm 141995


                        TO:           Inspector   General,    OS

                        FROM:         Assistant   Secretary    for    Health
                        SUBJECT :	 Office  of Inspector General (OIG) Draft    Report    ‘Federal
                                   Approaches to Funding Public Programs,      ‘(OEI-01-94-00160


                        Attached are the Public Health Se~ice   comments on the Subject
                        report.   We concur with the report’s recommendation.  Our
                        response describes the action that we have taken or plan to take
                        to implement this recommendation,


                                                         @&&’

                                                            L-
                                                        Philip R. Lee, M.D.


                        Attachment





                                                                   B-2

       PUBLIC       HEALTH SERVICE (PHS 1 COMMENTS ON THE OFFICE OF
    ZNSPECTOR       GENERAL (OIGI DRAFT REPORT “I?EDEIWL APPROAC13ESTO
             FUNDIZ?G PUBLIC                      GI#MS r “ OEX-01-94-00160

 OIG Recommendation

 The Publlc        Health    Se~ice    should develop         a strategy   to use

 performance         Lndi.caters in ways that will allow grantees

 substantial         discretion  i.n using Federal funds and? at the                 same

 time,    held     them sufficiently accountable for their

 performance.


 PHS Co~ent


We concur.     In December 1994 the PHS began to develop    a new
form of grant     program with the potential to bring about major
changes i.rt l?ecieral-State relationships.  It was des~gned   to
move the focus of funding to allow for much gzeater

flexibility on the part of States to coordinate and target

resources  to meet local needs, while providing for

accountability  for the results of State expenditures using

Federal funds and insuring that  broad Federal  priorities  are

addre6sed.         This     program,   entitled       “Performance   Partnershf.p

Grants,” has been proposed to Congress  as a way of

consolidating existing categorical and block grant programs

related to substance abuse, mental health semices    for adults

with serious mental illness and children with serious

emotional disturbances, immunization, AIDS/TB/sexually

transmitted diseases, chronic diseases, and preventive

services.


In addition, the Health Resources and Services Administration

 (HRSA) has an initiative  underway to establish and utilize

performance measures to demonstrate the effectiveness Of

programs whether they are funded through the categorical or

block grant mechanism,    The HRSA is presently evaluating

measurable goals of performance that can be reported as a part

of the budgetary process for the clusters and other program

activities within the agency.     It is expected that this will

result i.n an association of funding decisions with explicit

performance indicators.


Technical        Comments


We offer the following             technical      comments    for OIG’S

consideration.


Paae 2, third paraaraph, third sentence states that the

President’s Fiscal Year 1996 Budget proposed that 50 programs

in the Health Resources and Services Administration be lumped

into 3. This should be corrected to state that “50 programs

be lumped into 9,”





                                               B-3

Paae 5, uaraurauh followina first bullet:    Block grant
spending in 1993 is given  in 1975 “constant dollars” as
$17.6 billion.   It could be useful, especially for non-
economists, to show this amount also in 1993 actual dollars

($32 billion).





                             B-4

                              APPENDIX                    C

                                        ENDNOTES

1. Office of the Vice President, Strengthening the Patinei-ship in Intergovernmental
Service Delivery, Washington, DC, 1993.

2.	 Michael Reagan and Jon Sanzone, The New Federalism, Oxford University Press,
1981, p. 57.

3. Advisory Commission on Intergovernmental Relations (ACIR), Characteristics of
Federal Grant-in-Aid Programs to State and Local Governments: Grants Funded FY
1993, January 1994.

4. Ibid.

5. Ibid.

6. Ibid., pp. 1-7. In actual dollars, the 1993 total was $32 billion.

7. ACIR, The Partnership for Health Act: Lessons from a Pioneering Block Grant,
January 1977, p. 5.

8. ACIR, Improving Grants Management, February 1977, p. 3.

9. ACIR, Block Grants: A Comparative Analysis, October 1977, p. 6.

10. ACIR, Summary and Concluding Observations on the Intergovernmental Grant
System, June 1978, p. 40.

11. ACIR, Zle Pan?nershipfor Health Act: Lessons From a Pioneering Block Grant,
January 1977.

12. Ibid., p, 6.

13. ACIR, Summqand       Concluding Obsewations onthe Intergovernmental Granl
System, June 1978, p. 4.

14. Michael J. Rich, Federal Policymaking and the Poor: National Goals, Local Choices.
and Distributional Outcomes, Princeton University Press, 1990.

15. ACIR, Fiscal Balance, 1977, p. 153.

16. Michael J. Rich, Federal PolicvmakinE and the Poor:       National Goals. Local
Choices, and Distributional Outcomes.

17. Reagan and Sanzone, The New Federalism, p. 79,


                                            c-1
18. ACIR, Sum~qand       Concluding Obsewations onthe Intergovernmenlai Grant
System, June 1978, p. 4.

19. ACIR, Improving Federal Gran~sManagement, February 1977, p. 3.

20. ACIR, Summqand       Concluding Obsewations onthe Intergovernmental Grant
System, June 1978, p. 6.

21. Ibid.

22. ACHl, l%e PatinershipforHealth    Act: Lessonsfiom    a Pioneering Block Grant,
January 1977, p.6.

23. Carl W. Stenbergand David B. Walker, “TheBlockG rant:         Lessons from Two
Early Experiments,” Publius, Spring 1977.

24. ACHl, The Partnership for Health Act: Lessons jioma    Pioneering Block Grant,
January 1977.

25. George Peterson, etal. The Rea~an Block Grants, The Urban Insti~te, 1986,
p. 3.

26. Reagan and Sanzone, The New Federalism, p. 128.

27. Ibid., p. 122.

28.	 Claude E. Barfield, Rethinking Federalism: Block Grants and Federal. State. and
Local Res~onsibilities, American Enterprise Institute, 1981, pp. 20-21.

29. George Peterson, etal., The Rea~an Block Grants, The Urban Institute, 1986,
p. 4.

30. Ibid.

31. Ibid., pp. 28-29.

32. Department of Health and Human Services, Administration for Children and
Families, SumnuwyofActionson   Waiver Applications, 1994.

33. Claude E. Batileld, Rethinkin~ Federalism, p. 44.

34. U.S. General Accounting Office, Block Grants: Overview of fiperiences    to Date
and Emerging Zssues, HRD-85-46, 3 April 1985, pp. 17-21.

35. ACIR, Block Grants:A ComparativeAnalysis,     October 1977.

36. U.S. General Accounting Office, State Rather Than Federal Policies Provided the
Framework fori14anaging Block Grants, HRD-85-36, 15 March 1985, pp. 44-46.



                                          c-2

37. U.S. General Accounting Office, States Have Made Few Changes in Implementing
the Alcohol, Drug Abuse, and Mental Health Services Block Grant, ERD-84-52, 6 June
1984, pp. 43-44.

38. Ibid.

39.	 U.S. General Accounting Office, Matemland  Child Health Block Grant: Program
Change sEmerging Under State Administration, HRD-84-35,7 May 1984.

40. George Peterson, et al., The Rea~an Block Grants.

41. Ibid., p. 118,

42. U.S. General Accounting Office, States Use Added Flexibility O#ered @the
Preventive Health and Health Sewices Block Grant, H~-84-41,8     May 1984, p. 57.

43, George Peterson, etal., The Rea~an Block Grants, p. 118.

44. U.S. General Accounting Office, Lessons Learnedfiom Past Block Grants:
Implications for Congressional Oversight, IPE-82-8, 23 September 1982, p. 64.

45.	 ACIR, The Partnership for Health Act: Lessons fioma   Pioneering Block Grant,
1977.

46. Ibid., pp. 150, 192.

47. U.S. General Accounting Office, Lessons Learned From Past Block Grants:
Implications for Congressional Over;ight, IPE-82-8, 23 September 1982, p. 54.

48. Claude E. Barfleld, Rethinkiruz Federalism, p. 35.

49. George Peterson, et al., The Rea~an Block Grants, 1986, p. 1.

50. Ibid., p. 24.

51. Department of Health and Human Services, Office of Inspector General, Services
Integration: ATwenty Year Retrospective, 0EI-Ol-91-00580, January 1991.

52. ACIR, The Partnership for Health Act: Lessons from aPioneering Block Grant,
January 1977, p. 88.

53. ACIR, Summaqand        Concluding Observations, June 1978.

54. Zbid., pp. 126-127.

55. George Peterson, et al., The Rea~an Block Grants.

56.	 U.S. General Accounting Office, Maternal and Child Health Block Grant: Program
Changes Emerging Under State Administration, HRD-84-35, 7 May 1984, p. 9.


                                           c-3
57. U.S. General Accounting Office, States Use Added Flexibilip Ofered by the
Preventive Health and Health Services Block Grant, IIRD-84-41, 8 May 1984, p. 8.

58. ACIR, 77zePartnership for Health Act: Lessons fioma     Pioneering Block Grant,
January 1977, p. 80.

59. Ibid.

60.	 Leonard Robins, ''The Impact of Converting Categorical into Block Grants: The
bssomfrom    tie314(d) Block Grant inthe Patinership for Healti Act,'' Publius, Winter
1976, p. 67.

61. Ibid. p. 68.

62. Claude E. Barlleld, Rethinking Federalism, p. 44.

63. U.S. General Accounting Office, Block Grants Brought Funding Changes and
Adjustments to Program Priorities, HRD-85-33, 11 February 1985.

64. Ibid., p. 1.

65.	 U.S. General Accounting Office, Maternal and Child Health Block Grant: Program
Changes Emerging Understate Administration, HRD-84-35,7 May 1984, p. 43.

66. George Peterson, et al., The Rea~an Block Grants, 1986, p. 17.

67. Ibid., p. 116.

68. Ibid.

69.	 George Peterson, etal., The ReaEan Block Grants, The Urbm Instimte, 1986, pp.
124-128.

70. U.S. General Accounting Office, Lessons Learnedfiom Past Block Grants:
Implicationsfor C’ongressional Oversight, IPE-82-8, 23 September 1982, pp. 73-74.

71. ACIR, l%e Patinershipfor   Health Act: Lessonsfiom    a Pioneering Block Grant,
January 1977, p. 127.

72. George Peterson, et al., The Rea~an B1ock Grants.

73. Richard P. Nathan and FredC. Doolittle, “FederalGrants:     Giving and Taking
Away, ” Political Science Quarterly, Vol. 100, No. 1, Spring 1985.

74.	 ACIR, Summ.aq and Concluding Observations on the Intergovernmental Grant
System, June 1978, p. 40.

75. Ibid., p. 41.



                                         c-4
76. Richard Nathan, “StateandLocalG overnmentsU nderFederalG         rants,”   Political

Science Quanerly, Vol. 98., No. 1, Spring 1983.


77. Nathan and Doolittle, “FederalGrants:     Giving and Taking Away.”


78. Nathan, “State and Local Governments Under FederaI Grants. ”


79. Stenberg and Walker, “The Block Grant: Lessons from Two Early Experiments, ”

p. 37.


80. Ibid., p. 56.


81. U.S. GeneralAccounttig Office, Lessons Learned from Pat Block Grants:

Implications for Congressional Oversight, IPE-82-8, 23 September 1982, p. 34.


82. Ibid.


83. George Peterson, et al., The Reagan Block Grants, p. 18.


84. ACIR, Zbe Partnership for Health Act: Lessons from a Pioneering Block Grant,

January 1977, p. 98.


85. George Peterson, The Reagan Block Grants, p. 20.


86. U.S. General Accounttig Office, Block Grants Brought Funding Cbnges and

Adjustments to Program Priorities, HRD-85-33, 11 February 1985, p. 48.


87. Ibid., p. 49.


88. Ibid.


89. Ibid., p.50.


90. Atthebeginning ofthis report, wenoted the Vice President’s National Performance

Review, theincreaskg number of Stiterequests for Federal waivers, and the 1994

political campaigns and elections as such forces. To those might be added broader forces

such as (1) the widespread movement in corporations to reduce central planning and

management staffs while delegating additional authority and responsibility to the front

lines and (2) the information technology revolution which makes it increasingly possible to

make such delegations while top management can stay attuned to the performance of the

organization on a real-time basis.





                                            c-5
